IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-297
TRANSUNION LLC, PETITIONER
v.
SERGIO L. RAMIREZ
_______________

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________

MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________

Pursuant to Rules 28.4 and 28.7 of the Rules of this Court,
the Acting Solicitor General, on behalf of the United States,
respectfully moves for leave to participate in the oral argument
in this case and requests that the United States be allowed ten
minutes of argument time.
amicus

curiae

in

support

The United States has filed a brief as
of

neither

party.

Petitioner

and

respondent have both agreed to cede five minutes of argument time
to the United States, and therefore consent to this motion.
1.

The Fair Credit Reporting Act (FCRA or Act), 15 U.S.C.

1681 et seq., imposes various requirements on credit reporting
agencies (CRAs), which are entities that regularly compile and
disseminate personal information about individual consumers.

As

2
relevant here, FCRA requires that, “[w]henever a [CRA] prepares a
consumer report,” the CRA “shall follow reasonable procedures to
assure maximum possible accuracy of the information concerning the
individual about whom the report relates.”
(reasonable-procedures requirement).

15 U.S.C. 1681e(b)

FCRA also provides that,

upon a consumer’s request, a CRA must disclose all information in
the consumer’s file and provide the consumer with a written summary
of rights containing specified information.

15 U.S.C. 1681g(a)(1)

(disclosure requirement); 15 U.S.C. 1681g(c)(2)(A) (summary-ofrights requirement).

A consumer may sue to recover actual or

statutory damages for certain violations of the Act.

15 U.S.C.

1681n, 1681o.
This case presents the question whether all members of the
plaintiff

class

petitioner
reports

suffered

willfully

that

an

violated

erroneously

Article
FCRA

by

designated

III

injury-in-fact

(a)

producing

the

class

when

consumer

members

as

individuals who are barred from engaging in transactions in the
United States, without using reasonable procedures to ensure the
accuracy of those designations; (b) failing to disclose upon
request all information in each class member’s consumer file; and
(c) failing to provide each class member with a summary of rights.
The brief for the United States argues that all class members
suffered Article III injury from each of those violations.

3
This

case

also

presents

the

question

whether

the

certification of a statutory-damages class in this case violated
the typicality requirement of Federal Rule of Civil Procedure
23(a)(3).

The brief for the United States argues that the courts

below did not adequately consider whether respondent’s status as
class representative, and his testimony concerning the distinct
injuries he suffered, created an untoward risk that the jury’s
statutory-damages award would overcompensate unnamed class members
who did not suffer comparable injuries.

The United States further

argues that the case should be remanded to the court of appeals to
consider whether petitioner raised an adequate contemporaneous
objection to the procedures utilized at trial.
2.

The United States has a substantial interest in the

resolution of the questions presented and has participated in oral
argument in cases raising similar Article III and Rule 23 issues.
FCRA’s private right of action, and private suits seeking recovery
under the Act, provide an important supplement to the federal
government’s enforcement efforts.

And many other federal laws

contain similar provisions authorizing persons whose statutory
rights

have

been

violated

to

sue

for

statutory

damages.

Accordingly, the United States has presented oral argument as
amicus curiae in cases raising Article III questions similar to
those presented here.

See, e.g., Spokeo, Inc. v. Robins, 136 S.

Ct. 1540 (2016) (No. 13-1339); First Am. Fin. Corp. v. Edwards,

4
567 U.S. 756 (2012) (No. 10-708) (per curiam) (dismissing writ of
certiorari as improvidently granted).
In addition, the United States has a substantial interest in
the proper application of Rule 23.

The government views private

class actions under this rule as an important supplement to its
own enforcement suits, and the United States is often a defendant
in both class and collective actions.

The United States has

previously presented oral argument as amicus curiae in other cases
involving class-action rules and practices.

See, e.g., Frank v.

Gaos, 139 S. Ct. 1041 (2019) (No. 17-961) (per curiam); Tyson
Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036 (2016) (No. 14-1146).
In light of the government’s substantial interests in the
questions presented, the United States’ participation at oral
argument could materially assist the Court in its consideration of
this case.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
MARCH 2021

